Review of Outpatient Cardiac Rehabilitation Services - Northern Michigan Hospital, Petoskey, Michigan
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services - Northern Michigan Hospital, Petoskey, Michigan," (A-05-03-00084)
October 27, 2003
Complete
Text of Report is available in PDF format (287 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Northern Michigan Hospital (Hospital)
for outpatient cardiac rehabilitation services.  Our review disclosed the Hospital did not designate a physician to
directly supervise the services provided by its cardiac rehabilitation program.  In addition, contrary to current
Medicare requirements, we could not identify the physician professional services to which the cardiac rehabilitation services
were provided “incident to.”  Also, the Hospital claimed and received Medicare reimbursement for outpatient
cardiac rehabilitation services, amounting to approximately $3,738, which did not meet Medicare coverage requirements,
which may not have been supported by medical record documentation, or which were otherwise unallowable.  We recommended
a financial adjustment determination, and procedural and internal control improvements.